1a
APPENDIX
10 U.S.C. § 836
Art. 36. President may prescribe rules
(a) Pretrial, trial, and post-trial procedures,
including modes of proof, for cases arising under this
chapter triable in courts-martial, military
commissions and other military tribunals, and
procedures for courts of inquiry, may be prescribed
by the President by regulations which shall, so far as
he considers practicable, apply the principles of law
and the rules of evidence generally recognized in the
trial of criminal cases in the United States district
courts, but which may not, except as provided in
chapter 47A of this title, be contrary to or
inconsistent with this chapter.
(b) All rules and regulations made under this article
shall be uniform insofar as practicable, except
insofar as applicable to military commissions
established under chapter 47A of this title.
Military Rules of Evidence, Section VIII,
HEARSAY
Rule 801. Definitions that apply to this section;
exclusions from hearsay
(a) Statement. “Statement” means a person’s oral
assertion, written assertion, or nonverbal conduct, if
the person intended it as an assertion.
(b) Declarant. “Declarant” means the person who
made the statement.

2a
(c) Hearsay. “Hearsay” means a statement that:
(1) the declarant does not make while testifying
at the current trial or hearing; and
(2) a party offers in evidence to prove the truth of
the matter asserted in the statement.
(d) Statements that Are Not Hearsay. A statement
that meets the following conditions is not hearsay:
(1) A Declarant-Witness’ Prior Statement. The
declarant testifies and is subject to crossexamination about a prior statement, and the
statement:
(A) is inconsistent with the declarant’s
testimony and was given under penalty of perjury at
a trial, hearing, or other proceeding or in a
deposition;
(B) is consistent with the declarant’s
testimony and is offered:
(i) to rebut an express or implied charge
that the declarant recently fabricated it or acted
from a recent improper influence or motive in so
testifying; or
(ii) to rehabilitate the declarant’s
credibility as a witness when attacked on another
ground; or
(C) identifies a person as someone the
declarant perceived earlier.

3a
(2) An Opposing Party’s Statement. The statement
is offered against an opposing party and:
(A) was made by the party in an individual or
representative capacity;
(B) is one the party manifested that it adopted
or believed to be true;
(C) was made by a person whom the party
authorized to make a statement on the subject;
(D) was made by the party’s agent or employee
on a matter within the scope of that relationship and
while it existed; or
(E) was made by the party’s co-conspirator
during and in furtherance of the conspiracy. The
statement must be considered but does not by itself
establish the declarant’s authority under (C); the
existence or scope of the relationship under (D); or
the existence of the conspiracy or participation in it
under (E).
Rule 802. The rule against hearsay
Hearsay is not admissible unless any of the
following provides otherwise:
(a) a federal statute applicable in trial by courtsmartial; or
(b) these rules.

4a

Published Opinion of the United States Court of
Appeals for the Armed Forces, Feb. 24, 2021
UNITED STATES COURT OF APPEALS FOR
THE ARMED FORCES
UNITED STATES
Appellee
v.
Matthew D. NORWOOD,
Machinist’s Mate Nuclear First Class Petty
Officer
United States Navy, Appellant
No. 20-0006
Crim. App. No. 201800038
Argued October 27, 2020—Decided February 24,2021
Military Judge: Shane E. Johnson
For Appellant: Lieutenant Commander Chris
Riedel, JAGC, USN (argued); Captain Nicholas
S. Mote, USMC.
For Appellee: Major Kerry E. Friedewald,
USMC (argued); Lieutenant Commander
Timothy C. Ceder, JAGC, USN, Lieutenant
Colonel Nicholas L. Gannon, USMC, and Brian
K. Keller, Esq. (on brief).
Chief Judge STUCKY delivered the opinion of
the Court, in which Judge MAGGS and Senior
Judge EFFRON joined. Judge OHLSON filed a
separate opinion concurring in the result.

5a
Judge SPARKS filed a separate opinion
concurring in part and dissenting in part and in
the result.
Chief Judge STUCKY delivered the opinion of the
Court.
Appellant claims that the military judge erred
during his court-martial by admitting the majority of
the videotaped forensic interview of the alleged victim
as a prior consistent statement under Military Rule of
Evidence (M.R.E.) 801(d)(1)(B)(ii) and mishandling
supposed improper argument by the trial counsel. The
United States Navy-Marine Corps Court of Criminal
Appeals (CCA) found that some errors did occur, but
that they nevertheless did not materially prejudice
Appellant’s substantial rights. We hold that while the
interview was properly admitted as a prior consistent
statement, the improper argument prejudiced
Appellant as to sentencing, and reverse.
I. Procedural History
Appellant was investigated and prosecuted for
sexually abusing his niece, EN. The panel of officers
that sat as a general court-martial convicted
Appellant, contrary to his plea, of one specification of
sexual abuse of a child, in violation of Article 120b,
Uniform Code of Military Justice (UCMJ), 10 U.S.C. §
920b (2012). The panel then sentenced Appellant to a
dishonorable discharge, confinement for eighteen
months, and reduction to the grade of E-1. The
convening authority approved the adjudged sentence.
On appeal, the CCA affirmed the findings with
exceptions and affirmed the sentence. United States v.

6a
Norwood, 79 M.J. 644, 661–62, 666–67 (N-M. Ct.
Crim. App. 2019).1
II. Prior Consistent Statement
A. Facts
The first issue is whether the military judge erred
by admitting the substantive portions of EN’s
videotaped forensic interview as a prior consistent
statement under M.R.E. 801(d)(1)(B)(ii) such that
Appellant was prejudiced.
As the primary source of the Government’s
evidence during the court-martial, EN testified about
the events as follows.
In late December 2015, EN and her brother, RJ,
stayed with Appellant for a brief visit. At the time, EN
was fifteen years old and RJ was twelve. One night,
Appellant and EN watched a movie on the couch in
the living room, while RJ played a video game on
Appellant’s computer in the bedroom. During the
movie, Appellant asked EN if she wanted a massage.
When EN replied yes, Appellant said, “ ‘I don’t want
Although not relevant to the granted issues, we note that the
lower court excepted certain words from the specification. 79
M.J. at 661. Appellant was charged and convicted of sexually
abusing EN by touching her “breast, buttocks, groin, and inner
thigh.” The CCA, however, found that Appellant’s conviction
was legally and factually sufficient only as to Appellant’s
“touching EN’s breast, buttocks, and thigh,” and therefore
excepted the words “groin” and “inner” from the specification.
Id. Nevertheless, the court decided that those exceptions did not
“change . . . the penalty landscape” and therefore affirmed the
sentence as adjudged. Id. at 662.
1

7a
youto get mad at me, but I need you to take your bra
off.’ ” EN did so and Appellant proceeded with the
massage. Initially, he simply massaged her back, but
then he began to touch her around her stomach,
breast, and pubic areas. Even though EN became
tense and pushed his hand away, he continued
touching her and moved her so that she was sitting on
him such that she could feel his erect penis. Then, he
asked her “how far [she] had been with someone and
if there was a boy back [home].” When she said that
she had only kissed one boy in fourth grade, he
responded that “ ‘that didn’t count’ ” and pushed her
off of him. EN then left the room, eventually returning
to watch another movie with Appellant and RJ. The
next day, Appellant apologized to EN, saying “ ‘I’m
sorry for being an asshole the other night.’ ”
EN believed that Appellant had “touched [her]
inappropriately” and “for sexual purposes.”
Consequently, she tried to avoid Appellant as much as
possible for the rest of the trip and felt that the
remainder of the visit was “really awkward.” When
she returned home, she had trouble sleeping,
spending time with her friends, and being physically
close to anyone, especially boys in her class. Still, she
did not tell anyone what had happened, because she
thought that she was at fault and feared that
Appellant would hurt her if she told. Additionally, she
wanted her parents to know and help her, but did not
tell them because she worried about disappointing
them. However, a few weeks later, she talked about
the incident with her best friend. The friend told her
father, who informed EN’s stepfather. Appellant
subsequently was charged with sexually abusing EN.

8a
After EN’s direct testimony at the court-martial,
the defense sought to undermine her credibility
through cross-examination. In particular, the defense
asked EN about how she had not spoken with the
defense before the court-martial, her mother had not
wanted her to talk to the defense, and she had met
with the prosecution a number of times before the
court-martial. Following up about the meetings with
the prosecution, the defense asked if the prosecution
had told her to “ ‘[j]ust tell the truth’ ” and whether
she had “had to practice to tell the truth” before. On
redirect, the Government sought to rehabilitate EN’s
credibility by introducing her videotaped forensic
interview as a prior consistent statement. The defense
objected, arguing that the interview was inadmissible
hearsay. The military judge then called an Article
39(a), UCMJ, 10 U.S.C. § 839(a) session to develop the
record regarding the issue. After hearing arguments
by both the Government and defense, the military
judge agreed with the Government’s assertion that
the defense had attacked EN’s credibility by
suggesting that the prosecution had coached her
testimony and that EN’s statements from the
interview were consistent with those that she made
during her court-martial testimony. As a result, the
military judge found that the interview, with the
exception of the introductory rapport building
discussion, was admissible as a prior consistent
statement under M.R.E. 801(d)(1)(B)(ii). The
Government then played that interview for the
members.
On appeal, the CCA analyzed whether the
interview was admissible as a prior consistent
statement. Norwood, 79 M.J. at 654–57. The lower

9a
court agreed with the military judge that the
Government was permitted to introduce EN’s
interview as a prior consistent statement because the
defense had implied that the trial counsel had coached
EN’s testimony and the statements from the interview
were consistent with the statements from the
testimony. Id. at 656. However, the court then found
that the alleged coaching was a charge of recent
fabrication or recent improper influence, rather than
that of an attack on another ground, meaning the
military judge should have admitted the interview
under M.R.E. 801(d)(1)(B)(i) instead of M.R.E.
801(d)(1)(B)(ii). Id. But because the interview was still
admissible, just pursuant to a different provision, it
found that the military judge’s error did not prejudice
Appellant. Id.
B. Law
We review a military judge’s decision to admit
evidence for an abuse of discretion. United States v.
Finch, 79 M.J. 389, 394 (C.A.A.F. 2020) (quoting
United States v. Frost, 79 M.J. 104, 109 (C.A.A.F.
2019)). The military judge’s decision constitutes an
abuse of discretion if “his findings of fact are clearly
erroneous, the court’s decision is influenced by an
erroneous view of the law, or [his decision] is outside
the range of choices reasonably arising from the
applicable facts and the law.” Id. (internal quotation
marks omitted) (citation omitted). If the military
judge did improperly admit evidence, we evaluate
whether the error prejudiced the appellant, weighing
“(1) the strength of the Government’s case, (2) the
strength of the defense case, (3) the materiality of the
evidence in question, and (4) the quality of the

10a
evidence in question.” United States v. Kohlbek, 78
M.J. 326, 334 (C.A.A.F. 2019) (internal quotation
marks omitted) (quoting United States v. Norman, 74
M.J. 144, 150 (C.A.A.F. 2015)).
Hearsay statements—out of court statements
offered into evidence to prove the truth of the matter
asserted—usually are inadmissible in courts-martial.
M.R.E. 801(c); M.R.E. 802. However, a prior
consistent statement made out of court may not
constitute hearsay, and thus can be admitted as
substantive
evidence,
if
certain
threshold
requirements are first met: (1) the declarant of the
statement testifies at the court-martial, (2) the
declarant is subject to cross-examination, and (3) the
statement is consistent with the declarant’s
testimony. Finch, 79 M.J. at 394–95 (citing M.R.E.
801(d)(1)(B)). The first prong of M.R.E. 801(d)(1)(B)
requires the prior consistent statement to be offered “
‘to rebut an express or implied charge that the
declarant recently fabricated it or acted from a recent
improper influence or motive in so testifying.’ ” Id. at
394 (quoting M.R.E. 801(d)(1)(B)(i)). Under the second
prong of the rule, the statement must be offered “ ‘to
rehabilitate the declarant’s credibility as a witness
when attacked on another ground.’ ” Id. (quoting
M.R.E. 801(d)(1)(B)(ii)). The party that attempts to
admit the prior consistent statement into evidence
bears the burden of proving that it is admissible. Id.
C. Analysis
The Government argues that it met the
requirements laid out in M.R.E. 801(d)(1)(B) and
Finch such that the substantive part of the interview

11a
was admissible as a prior consistent statement. See
also Finch, 79 M.J. at 394–95 (citing M.R.E.
801(d)(1)(B)). Appellant concedes that EN testified
and was subject to cross-examination at the courtmartial, the interview was offered to rehabilitate EN’s
credibility because the defense attacked it, and the
interview was consistent with EN’s statement at least
in part. Nevertheless, Appellant continues to object to
the admission of the interview on two pri mary bases.
We agree with the Government and find Appellant’s
arguments opposing the admission of the interview
unpersuasive.
First, Appellant contends that both the military
judge and the CCA erred regarding the defense’s
attack of EN’s credibility: according to Appellant, the
accusation was not that the prosecution had coached
her to provide incriminating testimony against
Appellant, but instead that she had made up the
allegations from the beginning. However, the military
judge found as a fact that the ground on which the
defense attacked EN’s credibility was that her
testimony as a witness was coached by the
Government. The military judge’s finding of fact is not
clearly erroneous. Defense counsel asked EN “[h]ow
many times” she spoke with the prosecutors and
whether they told her to “ ‘[j]ust tell the truth.’ ” They
also questioned EN about whether she “ever before
had to practice to tell the truth or is this like the first
time?” Finally, they inquired as to whether EN only
remembered an event when she was “practicing [her]
testimony.” Based on these statements, the military
judge could infer that defense counsel was relying on
the “suggestive force of questions . . . to carry the
message” that EN’s testimony was coached by the

12a
Government. 4 Christopher B. Mueller & Laird C.
Kirkpatrick, Federal Evidence § 8:39, at 341 (4th ed.
2013). Consequently, even if Appellant is correct that
the defense also tried to undermine EN’s credibility by
contending that she had fabricated the allegations
herself, the military judge’s decision—to admit the
interview as a response to the argument that she was
coached—was within the range of choices reasonably
arising from the facts and law. See United States v.
Campo Flores, 945 F.3d 687, 705–06 (2d Cir. 2019).
The framing of the attack also leads to the issue of
the prong of M.R.E. 801(d)(1)(B) under which the
interview could be admitted. The CCA determined
that the military judge erred when he concluded the
interview
was
admissible
under
M.R.E.
801(d)(1)(B)(ii) because the impeachment constituted
an attack on another ground, when he should have
determined that the interview was admissible under
M.R.E. 801(d)(1)(B)(i) because the attack amounted to
a charge of a recent fabrication or recent improper
influence. Norwood, 79 M.J. at 656. Even if it were
true that the military judge erred, there could not be
prejudice when the interview still was admissible. See
United States v. Bess, 80 M.J. 1, 12 (C.A.A.F. 2020)
(explaining that we affirm a military judge’s ruling
when “ ‘the military judge reached the correct result,
albeit for the wrong reason’ ” (quoting United States v.
Robinson, 58 M.J. 429, 433 (C.A.A.F. 2003))).
Second, Appellant complains that the majority of
the interview was irrelevant to the Government’s goal
of rehabilitating EN as a witness and inconsistent
with EN’s testimony, rendering the interview
inadmissible. Neither of these arguments is

13a
persuasive. As explained above, the Government
offered the interview into evidence as a prior
consistent statement in order to rebut the defense’s
attack that the Government had coached EN’s
testimony. The coaching claim was an attack on EN’s
entire testimony at trial regarding the alleged sexual
assault, not to specific portions of her testimony. As a
result, the entire substantive portion of EN’s forensic
interview, containing her full version of the events
and given before she met with the Government (and
thus prior to the point that any coaching would be
possible), was admissible as a prior consistent account
of the sexual assault. Additionally, the only
inconsistencies that Appellant points to are two
details from EN’s testimony she did not mention
during the interview: that Appellant apologized to her
for the incident and the rest of the trip was awkward.
The prior statement “ ‘need not be identical in every
detail to the declarant’s . . . testimony at trial’ ” for it
to be “ ‘consistent’ ” under M.R.E. 801(d)(1)(B). Finch,
79 M.J. at 395 (alteration in original) (quoting United
States v. Vest, 842 F.2d 1319, 1329 (1st Cir. 1988)).
Accordingly, these two small additions do not change
the fact that the interview was “ ‘for the most part
consistent’ and in particular, . . . ‘consistent with
respect to . . . fact[s] of central importance to the trial.’
” Id. (alterations in original) (quoting Vest, 842 F.2d
at 1329). Therefore, the interview was admissible as a
prior consistent statement.
III. Improper Argument
A. Facts

14a
The second issue is whether the trial counsel
committed prosecutorial misconduct during the courtmartial by making improper arguments that
prejudiced Appellant.
The trial counsel and assistant trial counsel,
Lieutenant C.B. and Lieutenant Commander B.K.,
made numerous arguments that were, at best,
impassioned.
During the court-martial, Lieutenant C.B. and
Lieutenant Commander B.K. seemed to personally
vouch for EN’s credibility in both the opening and
closing arguments by referring to her as an “innocent”
child who had no reason to lie, claiming that she was
telling the truth, and asserting that her family
believed her. The defense objected to the comments
about EN’s family, and while the military judge
overruled the objection, he did issue a curative
instruction explaining that it was up to the members
to evaluate the witnesses’ credibility and testimony.
Later, in the rebuttal closing argument, Lieutenant
Commander B.K. repeatedly called Appellant a “child
molester,” going so far as to assert that “by saying that
there are reasonable doubts in this case, defense is
asking you to give child molesters a license to commit
these crimes, because if you can’t find [Appellant]
guilty . . . the only way . . . a child molester could ever
be convicted [is] if he is literally caught in the act.”
The defense did not object to those remarks and the
military judge took no action.
Finally, Lieutenant C.B. continued this style of
argument in the sentencing proceedings. During the
Government’s sentencing argument, she asserted that

15a
the defense would request a lenient sentence and,
clearly opposing that notion, asked the members to
consider what would happen “when you all return to
your normal duties . . . . [A]nd someone asks you. . . .
‘Wow, what did [Appellant] get for that?’ Do you really
want your answer to be ‘nothing at all’?” Again, the
defense did not object to this language and the
military judge did not act upon it sua sponte.
Appellant raised numerous improper argument
claims on appeal, but the CCA rejected most of them.
Norwood, 79 M.J. at 662–67. However, the lower court
did agree with Appellant that Lieutenant Commander
B.K. made improper rebuttal arguments by accusing
the defense of requesting that the members give child
molesters a “license” to commit this kind of crime and
claiming that EN’s family only declined to cooperate
with the defense because they believed EN was telling
the truth. Id. at 663–64. While the court said these
arguments were improper and the military judge
should have sustained Appellant’s objection to the
latter and given a stronger curative instruction, it
nonetheless concluded that the misconduct was
“isolated and brief,” the military judge’s instruction
that the members were to determine the witnesses’
credibility themselves was at least somewhat
curative, and the errors did not prejudice Appellant.
Id. at 663–65.
B. Law
A prosecutor proffers an improper argument
amounting to prosecutorial misconduct when the
argument “ ‘overstep[s] the bounds of that propriety
and fairness which should characterize the conduct of

16a
such an officer in the prosecution of a criminal
offense.’ ” United States v. Fletcher, 62 M.J. 175, 178
(C.A.A.F. 2005) (alteration in original) (quoting
Berger v. United States, 295 U.S. 78, 84 (1935)).
When the accused objects to an improper
argument during his court-martial, we review the
issue de novo. United States v. Voorhees, 79 M.J. 5, 9
(C.A.A.F. 2019). In that de novo review, we determine
whether any error materially prejudiced the
appellant’s substantial rights under Article 59,
UCMJ, 10 U.S.C. § 859; Fletcher, 62 M.J. at 179. “We
weigh three factors to determine whether trial
counsel’s improper arguments were prejudicial: (1)
the severity of the misconduct, (2) the measures
adopted to cure the misconduct, and (3) the weight of
the evidence supporting the conviction.” Voorhees, 79
M.J. at 12 (internal quotation marks omitted)
(citation omitted). When a trial counsel makes an
improper argument during findings, “reversal is
warranted only when the trial counsel’s comments
taken as a whole were so damaging that we cannot be
confident that the members convicted the appellant
on the basis of the evidence alone.” United States v.
Andrews, 77 M.J. 393, 401–02 (C.A.A.F. 2018)
(internal quotation marks omitted) (citation omitted).
On the other hand, if the accused failed to object
on this basis during the court-martial, we review the
matter for plain error. Id. at 398. To prove plain error
resulted from the trial counsel’s improper argument
during the sentencing proceeding, Appellant has the
burden of establishing “(1) there was error; (2) it was
plain or obvious; and (3) the error materially
prejudiced a substantial right.” United States v.

17a
Marsh, 70 M.J. 101, 104 (C.A.A.F. 2011) (internal
quotation marks omitted) (citations omitted).
In this context, material prejudice to
the substantial rights of the accused
occurs when an error creates “an unfair
prejudicial impact on the [court
members’]
deliberations.”
[United
States v.] Knapp, 73 M.J. [33,] 37
[C.A.A.F. 2014] ([first] alteration in
original) (internal quotation marks
omitted) (citation omitted). In other
words, the appellant “must show a
reasonable probability that, but for the
error, the outcome of the proceeding
would have been different.” MolinaMartinez v. United States, 136 S. Ct.
1338, 1343, 194 L. Ed. 2d 444 (2016)
(internal quotation marks omitted)
(citation omitted).
United States v. Lopez, 76 M.J. 151, 154 (C.A.A.F.
2017).
C. Analysis
As an initial matter, two of the alleged improper
arguments clearly do not merit relief. First, we reject
Appellant’s claim that trial counsel personally
attacked him by referring to him as a “child molester.”
A child molester is “[s]omeone who interferes with,
pesters, or persecutes a child in a sexual way, esp.
when touching is involved.” Black’s Law Dictionary
302 (11th ed. 2019) (entry for “child molester”). Given
that Appellant was prosecuted for and convicted of a

18a
sexual offense against a child, we agree with the
Government that this language actually was a
permissible characterization supported by the charge
and the evidence. See, e.g., Voorhees, 79 M.J. at 11
(noting that a trial counsel’s “word choice” can be
improper argument when it is a “personal attack on
the defendant” but not when it is a “commentary on
the evidence” (internal quotation marks omitted)
(citation omitted)); see also United States v. Bentley,
561 F.3d 803, 811 (8th Cir. 2009) (deciding that when
there was “strong” evidence that the appellant had
“committed sexual offenses against young girls,” then
“[t]he government’s description of [the appellant] as a
sexual predator was not plain error”). Second, it is
true that the military judge erred in overruling
defense counsel’s objection to the one supposedly
improper argument to which Appellant objected
during the court-martial: that EN’s family believed
that she was telling the truth about this matter. But
while this claim was irrelevant and inappropriate, it
did not amount to severe misconduct, particularly
because no one would expect her family not to believe
her and it only made up a few lines of rebuttal
argument. Cf. Voorhees, 79 M.J. at 12 (noting that
“trial counsel’s improper argument was severe” when
“[t]he misconduct was sustained throughout
argument and rebuttal, occurring with alarming
frequency”). Also, the defense immediately objected to
the argument and, although the military judge
overruled the objection, he issued a curative
instruction explaining that the members alone are to
judge witnesses’ credibility. “ ‘We presume, absent
contrary indications, that the panel followed the
military judge’s instructions. . . .’ ” United States v.
Short, 77 M.J. 148, 151 (C.A.A.F. 2018) (quoting

19a
United States v. Sewell, 76 M.J. 14, 19 (C.A.A.F.
2017)). Accordingly, Appellant was not prejudiced by
these arguments.
Although Appellant did not object to the other
improper arguments when the trial counsel made
them, those arguments were more problematic.
Lieutenant C.B. and Lieutenant B.K. clearly
committed misconduct during findings by repeatedly
vouching for EN, a method of argument that we have
explicitly prohibited. Voorhees, 79 M.J. at 11–12;
Fletcher, 62 M.J. at 180. Trial counsel “are military
officers and should conduct themselves accordingly,”
a standard that these trial counsel failed to meet
under our precedent regarding improper argument.
Voorhees, 79 M.J. at 14. However, while those
improper arguments constituted obvious error, there
was no material prejudice to Appellant during
findings. EN testified credibly that Appellant sexually
abused her and, despite strenuous efforts to
undermine her credibility, the defense failed to offer a
plausible reason as to why EN would have fabricated
these allegations. Therefore, Appellant cannot show a
reasonable probability that he would not have been
convicted in the absence of these improper arguments.
See Molina-Martinez, 136 S. Ct. at 143.
Instead, the prejudice arises from the sentencing
proceeding. In the sentencing argument, Lieutenant
C.B. pressured the members to consider how their
fellow servicemembers would judge them and the
sentence they adjudged instead of the evidence at
hand. This Court has repeatedly held that “a courtmartial must reach a decision based only on the facts

20a
in evidence.” Fletcher, 62 M.J. at 183 (citing United
States v. Bouie, 9 C.M.A. 228, 233, 26 C.M.R. 8, 13
(1958)). Arguing an inflammatory hypothetical
scenario with no basis in evidence amounts to
improper argument that we have repeatedly, and
quite recently, condemned. See Voorhees, 79 M.J. at
14–15. Furthermore, neither the defense counsel nor
the military judge took action to address the issue
themselves. The defense counsel could have done
more to meet their “duty to the[ir] client[s] to object to
improper arguments early and often,” as could have
the military judge to fulfill his “sua sponte duty to
[e]nsure that an accused receives a fair trial” but
because they did not, there was a total lack of curative
measures to redress this misconduct. Id. at 14–15
(alterations in original) (internal quotation marks
omitted) (citations omitted).2
In addition to meeting the first two prongs of the
plain error test by showing that the improper
argument amounted to error that was plain or
obvious, Appellant also has met his burden to show a
reasonable probability that there would have been a
different outcome to the sentencing proceeding had
this improper argument not occurred. See Marsh, 70
M.J. at 107. As our predecessor court said, “[t]rial
counsel may properly ask for a severe sentence, but
[they] cannot threaten the court members with the
2

We do note, however, that Appellant raised an ineffective
assistance of counsel claim before the CCA based on the defense
counsel’s failure to object to the improper argument, but the
court decided that relief was not warrented because it had
determined that the “arguments were either not improper, or if
they were, they were not prejudicial to [Appellant].” Norwood,
79 M.J. at 666.

21a
specter of contempt or ostracism if they reject [their]
request.” United States v. Wood, 40 C.M.R. 3, 9
(C.M.A. 1969). Lieutenant C.B. demanded the
members impose a sentence of a dishonorable
discharge, confinement for four years, and reduction
to E-1, while Appellant’s counsel implored the
members to limit the sentence to confinement for one
year. Under the circumstances, we conclude that
Appellant established that the trial counsel’s
egregious attempt to pressure the members resulted
in a reasonable probability that the sentence adjudged
was greater than it would have been otherwise.
Because “we cannot be confident that [Appellant] was
sentenced on the basis of the evidence alone,”
Lieutenant C.B.’s improper sentencing argument
caused material prejudice to Appellant such that he is
entitled to relief. Marsh, 70 M.J. at 107 (internal
quotation marks omitted) (citation omitted).
Judgment
The decision of the United States Navy-Marine
Corps Court of Criminal Appeals is affirmed as to
findings, but is reversed as to the sentence. The
sentence is set aside and the record is returned to the
Judge Advocate General of the Navy. A sentencing
rehearing is authorized.

22a
Judge OHLSON, concurring in the result.
I write separately in order to discuss certain
important aspects of this case as they relate to the
provisions of Military Rule of Evidence (M.R.E.)
801(d)(1)(B), and to sound a note of caution to the field
about the applicability of this decision to future cases.
To begin with, I believe the majority is remiss in
not squarely acknowledging that the military judge
was wrong in applying the provisions of M.R.E.
801(d)(1)(B)(ii) to a key facet of this case. Specifically,
the military judge ruled that because defense counsel
had implied that the victim’s in-court testimony was
the product of improper prosecutorial coaching,
M.R.E. 801(d)(1)(B)(ii) applied to the question of
whether a videotape of the victim’s prior statement to
forensic investigators was admissible at trial. As
demonstrated below, the military judge was clearly
mistaken about the applicability of this particular
provision, and the majority should affirmatively
concede this point.
M.R.E. 801(d)(1)(B)(i) provides, in pertinent part,
that a prior statement is not hearsay if it is consistent
with the witness’s in-court testimony and is offered “to
rebut an express or implied charge that the declarant
recently fabricated it or acted from a recent improper
influence.” (Emphasis added). On the other hand,
M.R.E. 801(d)(1)(B)(ii), which was the subpart cited
by the military judge, provides that a prior statement
is not hearsay if it is consistent with the witness’s incourt testimony and is offered to rehabilitate the
declarant’s credibility as a witness “when attacked on
another ground.” (Emphasis added).

23a

Here, the military judge concluded that the
defense counsel had implied that the victim’s in-court
testimony was the product of improper prosecutorial
coaching but then stated that prosecutorial coaching
is an attack on another “ground.” However, as we
emphasized in United States v. Finch, the reference in
M.R.E. 801(d)(1)(B)(ii) to “another ground” means a
ground other than a ground listed in M.R.E.
801(d)(1)(B)(i). 79 M.J. 389, 395–96 (C.A.A.F. 2020). A
charge of prosecutorial coaching falls under the
grounds listed in M.R.E. 801(d)(1)(B)(i). Thus, the
proper basis for analyzing the admissibility of the
victim’s
videotaped
statement
was
M.R.E.
801(d)(1)(B)(i) rather than M.R.E. 801(d)(1)(B)(ii).
This is not an inconsequential point. As the United
States Navy-Marine Corps Court of Criminal Appeals
(CCA) astutely observed in this case:
This distinction is important
because rebutting a challenge of recent
fabrication
[under
M.R.E.
801(d)(1)(B)(i)] logically permits a more
expansive use of prior statements to
show that nothing substantial has
changed in the declarant’s testimony.
On the other hand, rehabilitating the
credibility of the declarant [under
M.R.E. 801(d)(1)(B)(ii)] may require
something more precisely related to
explaining or rebutting the specific
manner of the attack on the witness’[s]
credibility.

24a
United States v. Norwood, 79 M.J. 644, 655 (N-M. Ct.
Crim. App. 2019) (citations omitted).
Next, I diverge from the majority’s apparent
viewpoint that the military judge’s admission of the
entire substantive portion of the interview—rather
than discrete sections of that interview—was an
appropriate default position. Specifically, I believe it
is a close question whether the military judge abused
his discretion in deciding that, in the course of
questioning the victim, the defense counsel had flung
open the door so wide that the Government could walk
through it with the entire substantive portion of the
victim’s videotaped statement. My concerns are as
follows.
Consistent with our recent unanimous decision in
Finch, when ruling on an M.R.E. 801(d)(1)(B) issue
such as this one, a military judge may admit at trial
only those portions of a prior statement that are
consistent with a witness’s in-court testimony and
that are relevant to the express purpose of rebutting the
allegation of a recent improper influence. Finch, 79
M.J. at 396. Thus, if just a segment of a prior
statement can adequately rebut an allegation that a
witness was affected by a recent improper influence,
then only that segment may be admitted at trial.
In those instances where a defense counsel alludes
to a purported inconsistency between a witness’s incourt testimony and a prior statement, the task of
identifying the admissible portion or portions of that
prior statement is relatively easy. If a witness said “x”
at trial, the military judge should admit only those

25a
portions of the prior statement where the witness
similarly said “x” in the prior statement.1
However, where, as here, a defense counsel
alludes to a purported omission (i.e., the witness said
“x” during in-court testimony but did not mention “x”
in the prior statement), the situation is far more
tricky. Simply stated, there is no specific “x” to be
found in the proverbial haystack that would directly
rebut the defense allegation that this omission was
reflective of a recent improper influence. Therefore, in
such a scenario it is incumbent upon this Court to
grant a military judge considerable leeway in deciding
just how much of the witness’s prior consistent
statement needs to be admitted to demonstrate to the
panel members that the omission was the product of,
say, a simple oversight on the part of the witness or
the failure of an interviewer to ask the witness a
question that was reasonably likely to elicit a relevant
response. For these reasons, the military judge did not
abuse his discretion in deciding to admit the entire
substantive portion of the victim’s prior statement—
although it is near the tipping point. However, I am
not as confident as the majority appears to be that the
military judge handled this issue in an exemplary
manner for the following four reasons.

1

For this reason, to the extent the Government argues that the
prior videotaped statement was also admissible under the
provisions of M.R.E. 801(d)(1)(B)(ii), because defense counsel
additionally sought to impeach the victim based on a few
alleged inconsistencies in her in-court testimony, this approach
does not justify the military judge’s decision to admit the entire
substantive portion of the video.

26a
First, the record suggests that the military judge
did not adequately consider whether the videotaped
segment played for the panel members could have
been significantly pared back while still achieving the
Government’s legitimate goal of rebutting the defense
counsel’s contention that there had been improper
prosecutorial coaching. Specifically, in addressing the
victim’s omission from her videotaped statement that
after the sexual abuse incident the rest of her vacation
stay with Appellant was “awkward,” I believe the
military judge erred by failing to admit at trial only
those portions of the victim’s prior statement that
dealt with the victim and Appellant’s interactions
after the sexual abuse—and not the sexual abuse
itself. However, I hesitantly conclude that this
misstep did not rise to the level of an abuse of
discretion.
Second, military judges must place the burden on
the moving party—here, the Government—both to
identify the consistent portions of the prior statement
and to demonstrate the relevancy of those portions to
the stated aim of rebutting the aspersions cast on a
witness’s credibility. Finch, 79 M.J. at 396. Here, by
admitting the entire substantive portion of the
videotape without adequately putting the prosecution
through these required steps the military judge
allowed into evidence some inconsistent statements
made by the victim and some other statements that
were not directly relevant to rebutting the specific
omissions raised by the defense counsel.
Third, the majority minimizes the harmful effect of
admitting the entire substantive portion of the
victim’s videotaped statement by noting that the

27a
inconsistent portions represented merely “two small
additions” to the victim’s testimony. Respectfully, this
misses an important point. As the Drafters’ Analysis
of M.R.E. 801(d)(1)(B) makes clear, beyond preventing
the introduction of evidence that was not adduced at
trial, a fundamental evil to be avoided in situations
such as this one is the “impermissible bolstering” of
the witness. Manual for Courts-Martial, United
States, Analysis of the Military Rules of Evidence app.
22 at A22-61 (2016 ed.); Finch, 79 M.J. at 396. In the
minds of triers of fact, repetition can be confused with
reliability. Therefore, the very act of admitting the
entire substantive portion of the videotape carried the
risk of prejudicing Appellant, and that is precisely
why the strictures on hearsay, and the hurdles
imposed by M.R.E. 801(d)(1)(B), must be strictly
observed.
Fourth and finally, on redirect examination the
trial counsel in this case had the following exchange
with the victim:
Q: . . . I just want to follow up on some
of defense counsel’s questions. Defense
counsel asked you a lot of questions
about meeting with us. What is the one
thing, the only thing, that we told you
you [sic] absolutely had to say in this
courtroom?
A: To tell the truth.
Q: Defense counsel also said that you
didn’t— he implied that you hadn’t told
the forensic interviewer about the rest

28a
of the trip in Hawaii and how it was
awkward. That’s correct isn’t it?
A: Yes.
Q: Isn’t it also true that the forensic
interviewer didn’t ask you what the
rest of the trip was like?
A: Yes.
In my view, the military judge should have more
fully considered whether this exchange between the
trial counsel and the victim—standing alone—was
sufficient to rebut the defense counsel’s allegation
that the witness’s in-court testimony was the product
of improper prosecutorial coaching. Indeed, I believe
this point should have been factored into the military
judge’s M.R.E. 403 balancing test in deciding whether
the probative value of introducing the entire prior
consistent statement was substantially outweighed by
the risk of creating unfair prejudice (through
repetition of the allegations), causing undue delay,
wasting time, and presenting cumulative evidence.
For these reasons, unlike the majority I believe
that the issue presented in this case is a very close
question. Even though we now hold that the military
judge’s decision to admit the entire substantive
portion of the videotaped statement did not rise to the
level of an abuse of discretion, I do not believe this
case should be seen as an exemplar of how military
judges should approach these types of issues in the
future. Generally speaking, a military judge’s decision
to admit a prior consistent statement in its entirety is

29a
fraught with peril. See Finch, 79 M.J. at 398. Indeed,
such a step may result in prejudice to an accused of
such a magnitude that it merits reversal of a
conviction. Therefore, in regard to Issue I, although I
ultimately agree with the majority that the military
judge did not abuse his discretion in admitting the
entire substantive portion of the videotape, I believe
it is prudent to sound a note of caution to the field
about the applicability of this decision to future cases
with different facts.
In regard to Issue II, I agree with the majority that
Appellant’s sentence should be set aside with a
sentence rehearing authorized.

30a
Judge SPARKS, concurring in part and dissenting
in part and in the result.
I concur with the majority’s conclusion that the
recorded interview was properly admissible as a prior
consistent statement under Military Rule of Evidence
(M.R.E.) 801(d)(1)(B)(i). However, I cannot join the
majority’s resolution of the improper argument on
sentencing. In my view, Appellant has not carried his
burden under the plain error standard to show that,
based on trial counsel’s argument regarding what the
members’ coworkers might think, a reasonable
probability exists that the sentence adjudged was
greater than it would have been otherwise.
The majority relies solely upon the sentences
requested by the parties as evidence of prejudice. The
Government argued for a sentence of four years of
confinement, reduction to the grade of E-1, and a
dishonorable discharge while the defense argued for
no more than one year of confinement and no punitive
discharge. However, this rationale ignores the
sentence that the members actually adjudged.
Appellant was sentenced to eighteen months of
confinement, a reduction to the grade of E-1, and a
dishonorable discharge. The term of adjudged
confinement is closer to what the defense requested
than what the Government requested of the members.
Further, it is unrealistic, under the facts and
circumstances of this case, to conclude that Appellant
would not have been adjudged a dishonorable
discharge. The fifteen-year-old victim testified on the
merits and gave an in-person unsworn statement at
sentencing. During the Government’s case on the

31a
merits, the members heard, and apparently found
credible, the victim’s detailed description of
Appellant’s conduct against her. On sentencing, the
victim described how Appellant’s offense against her
had left her severely emotionally and mentally
affected.
Finally, we should take into account that defense
counsel did not object to the trial counsel’s sentencing
argument. Defense counsel in this case was best
situated to determine which parts of trial counsel’s
argument were worth objecting to and which were not.
The majority has already pointed out that earlier in
the court-martial defense counsel seemed skilled
enough to recognize when and on what basis an
objection should be lodged. In the absence of an
ineffectiveness claim before this Court, defense
counsel’s failure to object here raises the possibility
that, from defense counsel’s perspective, trial
counsel’s inappropriate comments may have had less
of an effect on the members than the majority
believes.
My concern is that concluding under plain error
that there was prejudice in a case such as this one
suggests this Court’s lack of confidence in the skills
and abilities of military defense lawyers to try their
own cases. I certainly agree with the majority that
trial counsel’s statements were otherwise plain and
obvious error. I also agree with the majority’s
admonition to defense counsel and military judges
generally. However, I am simply not convinced that
Appellant met his burden to show material prejudice
to his substantial rights. It might have been a
different matter had counsel objected and been

32a
overruled without a curative instruction to the
members. Since that is not the case here, I must
respectfully dissent.

33a
Published Opinion of the United States Court
Navy-Marine Corps Court of Criminal
Appeals, Aug. 9,
2019
Before
CRISFIELD, HITESMAN, and GASTON,
Appellate Military Judges
_________________________
UNITED STATES
Appellee
v.
Matthew D. NORWOOD
Machinist’s Mate (Nuclear) First Class Petty Officer
(E-6), U.S. Navy
Appellant
No. 201800038
Decided: 9 August 2019
Appeal from the United States Navy-Marine Corps
Trial Judiciary. Military Judge: Commander Shane E.
Johnson, JAGC, USN. Sentence adjudged 12 October
2017 by a general court-martial convened at Joint
Base Pearl Harbor-Hickam, Hawaii, consisting of
officer members. Sentenced approved by the
convening authority: Reduction to E-1, confinement
for 18 months, and a dishonorable discharge.
For Appellant: William E. Cassara, Esq.; Lieutenant
Commander Ja-cob E. Meusch, JAGC, USN.

34a

For Appellee: Captain Brian L. Farrell, USMC;
Lieutenant Kurt W. Siegal, JAGC, USN.
Senior Judge HITESMAN delivered the opinion of the
Court, in which Chief Judge CRISFIELD and Judge
GASTON joined.
HITESMAN, Senior Judge:
Appellant was convicted of a single specification of
sexual abuse of child, his 15 year-old niece, in
violation of Article 120b, Uniform Code of Military
Justice (UCMJ), 10 U.S.C. § 920b (2012). This case
presents an issue of first impression for this court
regarding the use of prior consistent statements under MILITARY RULE OF EVIDENCE (MIL. R.
EVID.) 801(d)(1)(B), MANUAL FOR COURTSMARTIAL (MCM), UNITED STATES (2016 ed.), as
amended in 2016.
The appellant raises six assignments of error
(AOE): (1) that the military judge abused his
discretion when he admitted a videotaped forensic
interview of the victim and allowed witnesses to
recount her prior statements to them, (2) that the
military judge abused his discretion when he allowed
lay and ex-pert witness “human lie detector”
testimony, (3) that the appellant’s conviction is legally
and factually insufficient, (4) that the trial counsel’s
improper
arguments
constitute
prosecutorial
misconduct, (5) that the military judge abused his
discretion when he allowed the victim to speculate as
to appellant’s intent in touching her, and (6) that

35a
civilian defense
ineffective.

counsel

was

constitutionally

We consolidated the appellant’s abuse of discretion
claims and reordered the remaining AOE’s. We find
that certain language in the Specification is factually
insufficient, except it out, and reassess the sentence.
We also find several other errors but none that
prejudiced the substantial rights of the appellant.
I. BACKGROUND
EN and her younger brother, RJ, visited the
appellant during December of 2015 and stayed with
him in his small basement apartment in Honolulu,
Hawaii. EN was fifteen at the time and RJ was twelve
years old. At the time, they both lived with their
mother and stepfather in Idaho. The appellant is their
uncle—their father’s brother. On 30 December 2015,
the appellant and EN were watching a movie and both
were lying on the couch. RJ was in the appellant’s
nearby bedroom playing video games on the
appellant’s computer. EN’s back was sore from
sleeping on the couch and the appellant offered to give
her a back massage. EN was wearing a bra under a
tank top, which the appellant recommended she take
off. After she had removed her bra leaving her tank
top on, the appellant began to massage EN. In
addition to rubbing her back, the massage included
the appellant putting his hands under the waistband
of her shorts and underwear where he touched the top
of her pubic hair area above her vagina. He then
worked one hand up under EN’s shirt and massaged
her right breast while his other hand rubbed the top
of her thigh and moved up towards her private areas.
EN pushed the appellant’s hand away when it got

36a
about half way up her shorts as it moved towards her
vagina. Appellant then pulled EN onto his lap where
EN could feel his semi-erect penis with her buttocks.
Appellant asked EN about her sexual experience and
whether she had a boyfriend back home. EN
responded that she “hadn’t done anything but
kissing,” after which the appellant pushed her off of
him. EN then changed into her pajamas and lay down
on the couch with the appellant and RJ joined them to
watch another movie.
EN disclosed the abuse to her friend, MP, over the
phone about a month and a half later. MP told her
father, who informed EN’s stepfather. EN then told
her mother, GB, and her stepfather about what had
happened. GB in-formed the police and, in the
presence of GB, EN told a police officer what had
happened. Several days later, during a videotaped
forensic interview, EN again described what had
happened with the appellant.
Within two weeks of the abuse, the appellant
called his brother, the father of EN and RJ. He told
him that he had done something terrible and he would
kill or disown him if he knew. The appellant did not
disclose what he had done to deserve such treatment,
but he denied that it had anything to do with EN.
Approximately a year before trial, RJ moved in with
his father and was never interviewed by law
enforcement.
Additional facts necessary to resolve the AOEs
raised are discussed be-low.
II. DISCUSSION

37a
A. Abuse of Discretion
The appellant claims that the military judge
abused his discretion when he admitted EN’s
videotaped forensic interview and her accounts to
other witnesses as prior consistent statements;
allowed “human lie detector” testimony from lay and
expert witnesses; and allowed the victim to speculate
as to the appellant’s intent in touching her.
We review a military judge’s admission or
exclusion of evidence for an abuse of discretion.
United States v. Solomon, 72 M.J. 176, 179 (C.A.A.F.
2013) (citation omitted). “The abuse of discretion
standard is a strict one, call-ing for more than a mere
difference of opinion. The challenged action must be
arbitrary, fanciful, clearly unreasonable, or clearly
erroneous.” United States v. Lloyd, 69 M.J. 95, 99
(C.A.A.F. 2010) (citations and internal quotation
marks omitted).
Relevant evidence, as defined by MIL. R. EVID.
401, may be excluded by the military judge “if its
probative value is substantially outweighed by a
danger of one or more of the following: unfair
prejudice, confusing the issues, misleading the
members, undue delay, wasting time, or needlessly
presenting cumulative evidence.” MIL. R. EVID. 403.
So long as the military judge con-ducts a proper
balancing test the ruling will not be overturned unless
there is a clear abuse of discretion. United States v.
Manns, 54 M.J. 164, 166 (C.A.A.F. 2000) (citation and
internal quotation marks omitted). We owe less
deference to the military judge who fails to articulate
a MIL. R. EVID. 403 balancing analysis on the record,

38a
and no deference will be afforded to a ruling in which
the MIL. R. EVID. 403 analysis is altogether absent.
Id.
1. Prior consistent statements
After EN testified under oath during the
government’s case-in-chief, appellant’s trial defense
counsel cross-examined her about information in her
testimony that had not been previously recorded,
about inconsistencies with her prior accounts, and
about practicing her testimony with the assistance of
trial counsel. On redirect, the government offered,
over defense objection, a videotape of EN’s forensic
interview recorded shortly after she reported the
abuse. The military judge admitted a portion of the
videotape as a prior consistent statement.
Subsequently, the military judge also allowed several
other witnesses to testify about previous statements
by EN as prior consistent statements.
In 2016, the President amended MIL. R. EVID.
801(d)(1)(B), addressing prior consistent statements,
to mirror the federal rule. See Exec. Order No. 13730,
81 Fed. Reg. 33,331 (May 20, 2016); FEDERAL RULE
OF EVIDENCE (FED. R. EVID.) 801(d)(1)(B). This
change split the previous rule into two parts to
determine when a prior consistent statement may be
admitted into evidence. The first part permits the use
of a prior consistent statement to re-but a “charge that
the declarant recently fabricated . . . or acted from a
recent improper influence or motive in . . . testifying.”
MIL. R. EVID. 801(d)(1)(B)(i). The second part
permits the use of a prior consistent statement to
rehabilitate the credibility of a witness “attacked on

39a
another ground.” MIL. R. EVID. 801(d)(1)(B)(ii). The
interplay of these two parts presents an issue of first
impression for this court.
Only the second part of the amended rule is new
and it does not change the admissibility of prior
consistent statements used only to rehabilitate a
witness’ credibility. It does, however, change what the
statement can be used for once it is admitted into
evidence. A prior consistent statement, not otherwise
admissible under MIL. R. EVID. 801(d)(1)(B)(i), can
now be used as substantive evidence as well as to
rehabilitate the witness’ credibility. United States v.
Ledbetter, 184 F. Supp. 3d 594, 600 (S.D. Ohio 2016)
(citing Berry v. Beauvais, No. 13-cv-2647-WJM-CBS,
2015 U.S. Dist. LEXIS 119974 (D. Colo. Sept. 9,
2015)); see FED. R. EVID. 801(d)(1)(B)(ii) advisory
committee notes to 2014 amendments (stating “that
prior consistent statements otherwise admissible for
rehabilitation are now admissible substantively as
well”); United States v. Coleman, 72 M.J. 184, 188
(C.A.A.F. 2013) (stating that a prior consistent
statement that is not admissible under MIL. R. EVID.
801(d)(1)(B) might be admissible to “rehabilitate the
in-court testimony of a witness”).
The plain language of the rule is clear that
“another ground” under part (ii) means a ground other
than to rebut a charge of recent fabrication, influence,
or motive found in part (i). Cf. United States v. Sager,
76 M.J. 158, 162 (C.A.A.F. 2017) (finding that
“asleep,” “unconscious,” or “otherwise unaware” are
separate and distinguishable theories of criminal
liability because of the meaning of “otherwise”). Thus,
while part (i) requires the fabrication, influence, or

40a
motive to be recent with respect to the in-court
testimony, there is no such temporal requirement
attached to part (ii).
This distinction is important because rebutting a
challenge of recent fabrication logically permits a
more expansive use of prior statements to show that
nothing substantial has changed in the declarant’s
testimony. On the other hand, rehabilitating the
credibility of the declarant may require some-thing
more precisely related to explaining or rebutting the
specific manner of the attack on the witness’
credibility. United States v. Cotton, 823 F.3d 430, 437
(8th Cir. 2016); see United States v. Finch, 78 M.J.
781, 787 (A. Ct. Crim. App. 2019); see also MIL. R.
EVID. 801(d)(1)(B)(ii) analysis, MCM App. 22 at A2261 (reciting almost verbatim the same analysis for
FED. R. EVID. 801(d)(1)(B)(ii) advisory committee
notes to 2014 amendments). For example, if the
declarant’s credibility is attacked on another ground
such as impeachment by omission because she
testified to new information not previously mentioned
in other statements, admitting a prior statement that
is devoid of the fact now at issue, is not actually
consistent with the testimony attacked and does little
to rehabilitate the declarant’s credibility based on the
specific type of attack. See United States v. Pierre, 781
F.2d 329 (2d Cir. 1986) (where a witness was
impeached for omitting key facts in his notes, a
subsequent re-port containing the key facts was
admitted as a prior consistent statement and
rehabilitated his credibility). But see United States v.
J.A.S., 862 F.3d 543, 545 (6th Cir. 2017). Conversely,
when the witness’ credibility is attacked on another
ground such as faulty memory, less precise prior

41a
statements to rehabilitate the witness’ credibility may
be admitted. See United States v. Cox, 871 F.3d 479
(6th Cir. 2017) (holding where witness’ credibility was
at-tacked for a faulty memory, an entire prior report
of abuse was admitted as a prior consistent statement
and was allowed to rehabilitate her credibility and for
the truth of the matter asserted).
Whether a witness’ credibility can be properly
rehabilitated is left to the discretion of the military
judge. A military judge must use the MIL. R. EVID.
403 balancing test to assess the prior consistent
statement to ensure that its probative value in
rehabilitating the witness’ credibility is not
substantially outweighed by the danger of “unfair
prejudice, confusing the issues, misleading the
members, undue delay, wasting time, or needlessly
presenting cumulative evidence.” MIL. R. EVID. 403.
Otherwise, part (ii) of the rule would consume part (i)
by eliminating the significance of the temporal
requirement and would allow any prior ostensibly
consistent statement to be admitted into evidence and
used substantively. See FED. R. EVID. 801(d)(1)(B)(ii)
advisory committee notes to 2014 amendments
(discussing the intent that a FED. R. EVID. 403
balancing test would ensure that the prior statement
can properly rehabilitate the witness’ credibility).
Here, the appellant argues that (1) the trial
defense counsel did not allege the EN’s testimony was
coached by the trial counsel or that any part of her
testimony was recently fabricated, (2) that the
military judge applied the wrong subpart of MIL. R.
EVID. 801(d)(1)(B), and (3) that the military judge
erred by admitting the prior consistent statements in

42a
their entirety and without a MIL. R. EVID. 403
analysis.
After closely examining the record, we disagree
with the appellant and find that the assistant civilian
defense counsel clearly implied that EN’s testimony
was coached. On cross-examination, EN confirmed
that she knew that the assistant civilian defense
counsel wanted to speak to her but refused to talk to
him. EN also confirmed that she spoke with the trial
counsel team, met them in the courtroom where she
sat in the witness chair and answered likely
questions, and was told to tell the truth. The assistant
civilian defense counsel then asked “[h]ave you ever
before had to practice telling the truth or is this like
the first time?” EN replied that this was the first time.
Later when EN was being impeached for omitting
certain facts in her prior videotaped forensic
interview, she responded that she was not sure if she
had told the interviewer that the “rest of the trip [after
the abuse] was awkward.” The assistant civilian
defense counsel stated: “When did you remember
that? Yesterday when you were practicing your
testimony?” Defense counsel clearly implied that some
parts of EN’s testimony changed after practicing her
testimony with the trial counsel.
The military judge relied on MIL. R. EVID.
801(d)(1)(B)(ii) to admit the videotaped forensic
interview of EN as a prior consistent statement and
ruled: “I do find that the defense did attack this
witness’ credibility on another ground. That other
ground is the government has somehow coached the

43a
witness.”1 The military judge went on to add: “I’m
going to admit it for that purpose, to rebut—excuse
me, to rehabilitate this declarant’s credibility, as she’s
been attacked on another ground, that ground, she
has been coached by the government counsel.”2
We find error in the military judge’s reliance on
part (ii) of the rule, be-cause the defense implication
that EN was coached in preparation for testifying is
an implied charge of recent fabrication or recent
improper influence that squarely falls under part (i)
of the rule. MIL. R. EVID. 801(d)(1)(B)(i). Simply
referring to the impeachment as a charge of coaching
does not create a different ground for purposes of MIL.
R. EVID. 801(d)(1)(B).
The government argues that the prior consistent
statements were other-wise admissible under MIL. R.
EVID. 801(d)(1)(B)(ii) to rehabilitate EN’s credibility
because she was impeached through inconsistent and
omitted statements. While we agree that some of the
prior statements could have been admitted under that
reasoning, we find such analysis unnecessary because
the prior consistent statements are clearly admissible
under MIL. R. EVID. 801(d)(1)(B)(i) to rebut the
implied charge that EN’s testimony was coached.
Accordingly, we find that the statements were
properly admissible under MIL. R. EVID.
801(d)(1)(B)(i) and appellant was not prejudiced by
the military judge’s erroneous application of part (ii)
of the rule. See United States v. Miller, 46 M.J. 80, 84
(C.A.A.F. 1997) (finding the error harmless because a
1
2

Record at 344.
Id. at 345.

44a
stronger case could be made for admission of evidence
on a different basis).
Having determined that prior consistent
statements were admissible un-der MIL. R. EVID.
801(d)(1)(B)(i), we next analyze whether each of the
four admitted statements were actually prior
consistent statements and whether they were
properly admitted under MIL. R. EVID. 403. Four
prior consistent statements were admitted into
evidence: (1) EN’s initial disclosure to her friend MP,
(2) EN’s disclosure to her mother, GB, (3) EN’s
statements to po-lice, as overheard by and described
by GB, and (4) a substantial portion of the video
recording of EN’s forensic interview, which took place
less than two weeks after EN first disclosed abuse.
The video was admitted in its entirety, omitting only
some introductory rapport-building. The military
judge con-ducted a MIL. R. EVID. 403 balancing test
with respect to the videotaped forensic interview of
EN, although, as we noted above, he incorrectly
assessed the probative value of the evidence as
rehabilitating EN’s credibility instead of rebutting a
charge of recent fabrication or improper influence.
The military judge did not conduct a MIL. R. EVID.
403 analysis when admitting the testimony of GB and
MP as prior consistent statements. Accordingly, we
afford these rulings little deference and examine the
record for ourselves.
EN’s statements to MP were very brief and
consisted of just a few sentences. Likewise EN’s
disclosures to her mother and the police officer were
also brief and contained just a few additional details.
Although the statements to her mother and the police

45a
officer contained at least one inconsistency identified
by the assistant civilian defense counsel regarding
what EN was wearing, the statements were generally
consistent with her testimony. In light of the defense
implication that EN was coached by the trial counsel,
the probative weight of the video and the three
statements was significant to show that EN’s account
of the abuse had been generally consistent from her
first disclosure until her testimony at trial. The four
prior consistent statements were not needlessly
cumulative. The video was compelling and of high
quality, and the members could see and hear EN for
themselves. In contrast, the additional statements to
MP, GB, and the police officer were brief but given to
separate people at different times. Although a
military judge has the discretion to exclude some
parts or all of a prior consistent statement that are
“cumulative accounts of an event,” we do not find that
the additional statements to MP, GB, and the police
officer required exclusion. See MIL. R. EVID.
801(d)(1)(B)(i) analysis, MCM App. 22 at A22-61. We
find the probative weight of the videotaped forensic
interview and the three additional prior consistent
statements was not substantially outweighed by the
danger of un-fair prejudice, confusing the issues,
misleading the members, undue delay, wasting time,
or needlessly presenting cumulative evidence. MIL. R.
EVID. 403.
Because the prior consistent statements were
admissible under MIL. R. EVID. 801(d)(1)(B)(i) and
MIL. R. EVID. 403, we find that the appellant’s
substantial rights have not been prejudiced.

46a
2. Lay and expert witness human lie detector
testimony
The appellant claims the military judge abused his
discretion by allowing “human lie detector” testimony
from Dr. F, the government’s expert in clinical,
forensic, and child psychology; EN’s friend, MP; and
EN’s mother, GB, all indicating they believed the
victim was telling the truth. We disagree with respect
to Dr. F and MP, but agree that GB gave human lie
detector testimony.
“Human lie detector testimony” has been defined
as “an opinion as to whether [a] person was truthful
in making a specific statement regarding a fact at
issue in the case.” United States v. Kasper, 58 M.J.
314, 315 (C.A.A.F. 2003). The Court of Appeals for the
Armed Forces (CAAF) has been “resolute in rejecting
the admissibility of so-called human lie detector
testimony . . . .” United States v. Knapp, 73 M.J. 33,
36 (C.A.A.F. 2014) (quoting United States v. Brooks,
64 M.J. 325, 328 (C.A.A.F. 2007)). This class of
testimony is inadmissible because it exceeds the
limits of permissible character evidence governed by
MIL. R. EVID. 608 (evidence of character, conduct,
and bias of wit-ness), exceeds the scope of the witness’
knowledge, in violation of MIL. R. EVID. 701 (opinion
testimony by lay witnesses), and usurps the factfinder’s exclusive function to weigh evidence and
determine credibility. See Kasper, 58 M.J. at 315. “The
prohibition applies not only to expert testimony, but
also to conclusions as to truthfulness offered by a
nonexpert.” Id.; see also United States v. Petersen, 24
M.J. 283, 284 (C.M.A. 1987) (“We are skeptical about
whether any witness could be qualified to opine as to

47a
the credibility of another.”). The admission of “human
lie detector” testimony is error, regardless of which
party offers it.
a. Testimony of Dr. F
Prior to the government calling Dr. F as an expert
witness, the civilian defense counsel objected, arguing
that Dr. F’s testimony would not be helpful and would
constitute human lie detector testimony. The military
judge over-ruled the objection and found that the
testimony would be helpful. The military judge invited
the civilian defense counsel to object during Dr. F’s
testimony if it became human lie detector testimony.
The government’s witness, Dr. F, testified about the
symptoms typically observed in child sexual abuse
victims such as accommodation, delayed reporting,
and other counterintuitive behaviors. Dr. F
recognized that EN had testified that her own
behavior changed after she returned from Hawaii.
Trial counsel then asked Dr. F with respect to such
behaviors described by EN: “Could these changes that
[EN] observed in herself be a consequence of the
sexual abuse that she experienced in Hawaii?”3 Dr. F
replied: “Yes.”4 The civilian defense counsel did not
object to the question. On cross-examination, Dr. F
stated several times that observed behaviors and
symptoms do not “in any way bear on the credibility
of the underlying allegation”5 and conceded that there
were “any number of rea-sons”6 a person might exhibit
Id. at 449.
Id.
5
Id. at 461-2.
6
Id. at 457.
3
4

48a
the behaviors that EN exhibited, including not having
been abused at all.7 The appellant contends that Dr.
F, by responding to the trial counsel’s presumptive
and leading question, improperly commented on the
veracity of EN’s testimony.
In a trial involving sexual abuse of a child, “an
expert may testify as to what symptoms are found
among children who have suffered sexual abuse and
whether the child-witness has exhibited these
symptoms.” United States v. Mullins, 69 M.J. 113, 116
(C.A.A.F. 2010). This includes testimony regarding
“counterintuitive behaviors” exhibited by victims of
sexual abuse. United States v. Flesher, 73 M.J. 303,
313, 316 (C.A.A.F. 2014). During cross-examination,
the opposing party may explore the basis for the
expert’s opinion, including the assumptions and
information upon which the expert relied. MIL. R.
EVID. 703. Here, the fact that Dr. F considered EN’s
testimony does not turn her otherwise admissible
expert opinion into human lie detector testimony. See
United States v. Hill-Dunning, 26 M.J. 260, 262
(C.M.A. 1988) (stating there is “a distinction between
the expert who has an opinion based upon a belief in
the truthfulness of what another person has told him
and the expert whose opinion is that the other person
is truthful”).
Dr. F did not provide human lie detector testimony
because she never opined or implied that EN was
truthful in alleging that the appellant sexually abused
her, nor did Dr. F express an opinion that the

7

Id. at 456.

49a
appellant was guilty. We find no error in permitting
the testimony of Dr. F.
b. Testimony of MP and GB
EN’s best friend, MP, testified regarding the
telephone call during which EN first disclosed that
the appellant had “put his hands up her shirt and
down her pants.”8 MP was asked by trial counsel to
describe EN’s demeanor as she was telling MP what
happened in Hawaii. MP stated that EN was very
upset, shaken, and crying and that MP “could tell
[EN] was very, very affected.”9 Lay opinion testimony
is admissible if the opinion is based on the witness’
perception and the opinion is helpful to the members
in understanding the witness’ testimony. United
States v. Byrd, 60 M.J. 4, 7 (C.A.A.F. 2004). MP was
asked for and offered permissible testimony of EN’s
demeanor. She did not provide any testimony
regarding her opinion of EN’s veracity or the
appellant’s guilt. We find no error in admitting MP’s
testimony.
The assistant civilian defense counsel crossexamined EN’s mother, GB, regarding her family’s
refusal to speak to the defense team prior to trial, and
implied that the family was “hiding [ ]witnesses.” 10
GB stated: “I didn’t want defense talking to anyone
about this case.”11 On redirect examination, the trial
counsel asked GB: “[W]hy did you choose to not
Id. at 360.
Id. at 360.
10
Id. at 385.
11
Id. at 483.
8
9

50a
answer defense counsel’s phone calls or allow your
children to speak with defense counsel?”12 GB
responded: “Because they’re working for the person
that molested my daughter.”13 The assistant civilian
defense counsel objected but the military judge
overruled the objection and allowed the question and
answer to stand. We find that human lie detector
testimony was implicit in GB’s response.
The government argues that the defense crossexamination invited the human lie detector
testimony. We disagree. The assistant civilian defense
counsel’s cross-examination of GB regarding her
family’s refusal to speak with the defense did not
create an error and then attempt to take advantage of
it. United States v. Martin, 75 M.J. 321, 325 (C.A.A.F.
2016). This did not leave the members with a “skewed
view of the evidence” that only the government’s
subsequent error could rectify. Id. GB could have
answered in a number of ways without giving her
opinion that EN was telling the truth and the
appellant was guilty. Allowing GB to give human lie
detector testimony was error and an abuse of
discretion. The military judge should have sustained
the objection and issued an immediate curative
instruction.
c. No prejudice to the appellant
Having found error in allowing GB to testify that
the appellant molested her daughter, implying that
the appellant is guilty and that EN is telling the truth,
12
13

Id. at 403.
Id. at 404.

51a
we now consider whether the appellant’s substantial
rights were prejudiced. Four factors determine when
a non-constitutional error substantially influenced
the member’s verdict: (1) the strength of the
government’s case, (2) the strength of the defense’s
case, (3) the materiality of the evidence in question;
and (4) the quality of the evidence in question. United
States v. Kerr, 51 M.J. 401, 405 (C.A.A.F. 1999). Both
the government’s case and the appellant’s case hinged
on EN’s credibility. EN’s prior consistent statements
had already been admitted into evidence. GB’s human
lie detector testimony was material because it
bolstered EN’s testimony and credibility. However,
the quality and impact of this evidence was low
because the members would naturally expect GB to
believe her young daughter. The evidence added very
little to the weight of the evidence already against the
appellant, and moreover, the military judge
eventually gave a curative instruction with regard to
this testimony. Although the military judge overruled
the defense objection at the time, he revisited the
issue two hours later after the government’s next two
witnesses and issued the members a limiting
instruction that they could not consider GB’s opinion
as “evidence that a crime [has] occurred or that the
witness is credible.”14 The military judge issued the
instruction again during argument when the
assistant trial counsel commented that the other witnesses believed EN.”15 While an immediate curative
instruction would have been ideal, we find that the
delayed instructions were sufficient to cure the error.
Without evidence to the contrary, we assume the
14
15

Id. at 425.
Id. at 558.

52a
members followed the instructions of the military
judge. United States v. Short, 77 M.J. 148, 151
(C.A.A.F. 2018). Accordingly, we find that no
substantial right of the appellant was prejudiced by
the erroneous admission of GB’s testimony regarding
her opinion of EN’s veracity or the appellant’s guilt.
3. Allowing the victim to speculate as to the
appellant’s intent
As an element of the charged offense under Article
120b, UCMJ, the government had to prove beyond a
reasonable doubt that the appellant touched EN with
the specific intent to gratify his sexual desires. Trial
counsel asked EN: “Why do you think he was touching
your breast and trying to put his hand into your
shorts?”16 The immediate defense objection was
overruled by the military judge without discussion.
EN responded: “Probably for sexual purposes.”17
The government argues that EN was providing a
lay opinion based on her perception as permitted by
MIL. R. EVID. 701. We disagree. The question clearly
called for EN to impermissibly speculate on what the
appellant was thinking or intending. The military
judge erred by allowing the question and answer to
stand, and by not providing an immediate curative
instruction to the members.
Having found error, we now consider whether the
appellant’s substantial rights have been prejudiced
under the Kerr factors outlined above. EN’s credibility
16
17

Id. at 293.
Id.

53a
was the linchpin for both the government’s case and
the appellant’s case. EN was the victim and only
substantive witness for the government. However,
EN’s opinion of the appellant’s intent added very little
weight to prove the appellant touched her with the
specific intent of gratifying his sexual desires, which
the members could reasonably and readily infer from
the facts already before them. Her testimony that a
30-year-old man, lying on a couch with her, a 15-yearold girl, (1) put his hands in her shorts just above her
pubic region, (2) fondled one of her breasts with one
hand while his other hand moved up her thigh
towards her vagina, and (3) placed her buttocks on his
lap where she could feel his semi-erect penis is strong
circumstantial evidence that the accused’s actions
were committed with the necessary specific intent.
Moreover, the improper opinion testimony is material
in that it attempts to prove the intent element of the
charged offense. However, the quality of the evidence
is relatively low when the rest of EN’s testimony is
considered. As the trial counsel’s direct examination
continued, EN said she was “confused,” and “did not
know why the appellant was touching her.”18 Given
the strong circumstantial inferences that can be made
from EN’s other testimony, her speculation would
have had little impact on the members. In addition,
the trial counsel team did not refer to EN’s
speculation of the appellant’s intent in closing or
rebuttal arguments. Accordingly, we find that the
appellant’s substantial rights were not prejudiced.
B. Legal and Factual Sufficiency of the
Conviction
18

Id.

54a
The appellant contends that his conviction for
sexually abusing EN is legally and factually
insufficient. We review questions of legal and factual
sufficiency de novo. Art. 66(c), UCMJ; United States v.
Washington, 57 M.J. 394, 399 (C.A.A.F. 2002). To
determine legal sufficiency, we ask whether,
considering the evidence in the light most favorable to
the prosecution, a reasonable fact-finder could have
found all the essential elements beyond a reasonable
doubt. United States v. Turner, 25 M.J. 324, 324-25
(C.M.A. 1987) (citing Jackson v. Virginia, 443 U.S.
307, 319 (1979)). In conducting this analysis, we must
“draw every reasonable inference from the evidence of
record in favor of the prosecution.” United States v.
Gutierrez, 74 M.J. 61, 65 (C.A.A.F. 2015). In
evaluating factual sufficiency, we determine whether,
after weighing the evidence in the record of trial and
making allowances for not having observed the
witnesses, we are convinced of the appellant’s guilt
beyond a reasonable doubt. Turner, 25 M.J. at 325. In
conducting this unique appellate function, we take “a
fresh, impartial look at the evidence,” applying
“neither a presumption of innocence nor a
presumption of guilt” to “make [our] own independent
determination as to whether the evidence constitutes
proof of each required element beyond a reasonable
doubt.” Washington, 57 M.J. at 399. Proof beyond a
“[r]easonable doubt, however, does not mean the
evidence must be free from conflict.” United States v.
Rankin, 63 M.J. 552, 557 (N-M. Ct. Crim. App. 2006).
The appellant was convicted of touching the
breast, buttocks, groin, and inner thigh of EN, the
appellant’s 15-year-old niece, in violation of Article
120b, UCMJ. To support this conviction, the

55a
government needed to prove be-yond a reasonable
doubt that: (1) the appellant committed a lewd act
upon EN by intentionally touching, directly and
through the clothing, the breast, buttocks, groin, and
inner thigh of EN; (2) that EN had not attained
sixteen years of age; and (3) that the appellant did so
with the intent to gratify his sexual desire. Id.
Here, it is uncontroverted that EN was fifteen at
the time of the inappropriate touching. EN provided
the only evidence of the manner in which the
appellant touched her to include how he touched her
back, stomach, upper pubic area, right breast, leg, and
thigh with his hands directly and over her clothes. EN
also testified that the appellant pulled her onto his lap
and that she could feel his semi-erect penis on her
buttocks through their clothes. Both trial and defense
counsel recognized that the case hinged on EN’s
credibility. The members saw and heard EN’s
testimony as well as observed her during a videotaped
forensic interview. The members heard testimony
that recounted three additional statements made by
EN describing the sexual abuse she suffered at the
hands of the appellant. EN also testified that the
appellant “apologized for being an asshole”19 the day
after the abuse. Finally, the appellant’s brother, EN’s
father, testified and described the appellant’s
distraught and drunken call in which he claimed to
have done something horrible for which he would
disown the appellant if he found out.
After carefully reviewing the record of trial and
considering the evidence in the light most favorable to
19

Id. at 296.

56a
the prosecution, we are convinced that a reasonable
fact-finder could have found that the appellant
touched EN with the intent to gratify his sexual
desire. Furthermore, after weighing the evidence
served the witnesses, we too are convinced beyond a
reasonable doubt that the appellant sexually abused
EN.
However, based on the record before us, we are
only convinced that he did so by touching EN’s breast,
buttocks, and thigh. EN’s forensic interview and
testimony support the finding that the appellant only
touched the top of her pubic region where her pubic
hair starts and the top of her thigh. According-ly, we
find that the evidence is legally and factually
sufficient to sustain a finding of guilty to the Charge
but only to a modified finding of guilty to the
Specification. We will except the words “groin” and
“inner” from the Specification in our decretal
paragraph and reassess the sentence below.
C. Sentence Reassessment
Having set aside the finding of guilty to some of the
language alleged in the specification, we must now
determine if we are able to reassess the appellant’s
sentence. We have “broad discretion” when
reassessing sentences. United States v. Winckelmann,
73 M.J. 11, 12 (C.A.A.F. 2013). However, we can only
reassess a sentence if we are confident “that, absent
any error, the sentence adjudged would have been of
at least a certain severity . . . .” United States v. Sales,
22 M.J. 305, 308 (C.M.A. 1986).

57a
In determining whether to reassess a sentence or
to order a sentencing rehearing, we consider the five
factors espoused in our superior court’s holding in
Winckelmann: (1) whether there has been a dramatic
change in the penalty landscape and exposure; (2) the
forum of the court-martial; (3) whether the remaining
offenses capture the gravamen of the criminal
conduct; (4) whether significant aggravating
circumstances remain admissible and relevant; and
(5) whether the remaining offenses are the type with
which we as appellate judges have experience and
familiarity to reasonably determine what sentence
would have been imposed at trial. Winckelmann, 73
M.J. at 15-16.
Because our findings do not effect significant
changes to the language of the offense and do not
completely set aside the findings of guilty, there is no
change in the penalty landscape. The remaining
language captures the gravamen of the criminal
conduct for which the members convicted and
sentenced the appellant, and the modification does
not render any evidence presented at trial
inadmissible or irrelevant. Furthermore, this is an
offense with which we, as appellate judges, have indepth experience and familiarity. The evidence of the
appellant’s culpability for sexually abusing his 15year-old niece remains the same. We conclude that
sentence reassessment is appropriate. We are
confident that, absent the excepted language, the
court-martial would have imposed no less of a
sentence than the members adjudged—dishonorable
discharge, reduction to pay grade E-1, and 18 months’
confinement.

58a
D. Improper Argument
The appellant contends that the trial counsel and
assistant trial counsel committed prosecutorial
misconduct during closing and sentencing arguments
when they interjected their personal opinions of the
evidence, vouched for government witnesses, and
used inflammatory language.
Prosecutorial misconduct occurs when a
prosecutor “oversteps the bounds of that propriety and
fairness which should characterize the conduct of such
an officer in the prosecution of a criminal offense.”
United States v. Fletcher, 62 M.J. 175, 178 (C.A.A.F.
2005) (quoting Berger v. United States, 295 U.S. 78, 84
(1935)). In general, it is “defined as action or inaction
by a prosecutor in violation of some legal norm or
standard, e.g., a constitutional provision, a statute, a
Manual rule, or an applicable professional ethics
canon.” United States v. Meek, 44 M.J. 1, 5 (C.A.A.F.
1996) (citing Berger, 295 U.S. at 88). The conduct of
the “trial counsel must be viewed within the context
of the entire court-martial . . . not [just] on words in
isolation.” United States v. Baer, 53 M.J. 235, 238
(C.A.A.F. 2000) (quoting United States v. Young, 470
U.S. 1, 16 (1985)).
Improper argument is a type of prosecutorial
misconduct that involves a question of law that we
review de novo. United States v. Andrews, 77 M.J. 393,
398 (C.A.A.F. 2018). When objected to at trial, we
review improper argument for prejudicial error. Id.
“[When] no objection is made, we hold the appellant
has forfeited his right to appeal and review for plain
error.” Id. Plain error “requires that: (1) an error was

59a
committed; (2) the error was plain, or clear, or
obvious; and (3) the error resulted in material
prejudice to substantial rights.” United States v.
Pabelona, 76 M.J. 9, 11 (C.A.A.F. 2017) (citation and
quotation marks omitted).
We find error in the argument of the assistant trial
counsel as objected to by the defense counsel. We also
find plain or obvious error in some, but not all, of the
challenged parts of the trial counsel’s and assistant
trial counsel’s arguments to which the defense did not
object.
1. Interjection of personal beliefs and opinions
“It is improper for a trial counsel to interject
herself into the proceedings by expressing a personal
belief or opinion as to the truth or falsity of any
testimony or evidence.” Fletcher, 62 M.J. at 179
(citation and internal quotation marks omitted).
Personal beliefs and opinions may be in the form of
improper vouching for the government’s case or by
offering personal views of the evidence and appellant’s
guilt. See id. at 180. Improper expression of the trial
counsel’s views of the evidence can include “offering
substantive comments on the truth or falsity of the
testimony and evidence.” Id. at 180.
Appellant argues that the trial counsel improperly
vouched for EN’s credibility. We disagree. A fair
reading of the arguments of counsel show that the
trial counsel did not offer substantive comments or
interject her personal opinion, view, or beliefs
regarding the truth of EN’s testimony. Rather, she
merely argued that EN’s testimony was credible based

60a
on the evidence, the circumstances surrounding her
allegations and disclosures, and the absence of any
discernable motive to lie.
2. Inflaming the prejudices and passions of the
members
It is a basic rule of our profession that a
“prosecutor should not make arguments calculated to
appeal to improper prejudices of the trier of fact. The
prosecutor should make only those arguments that
are consistent with the trier’s duty to decide the case
on the evidence, and should not seek to divert the trier
from that duty.” CRIMINAL JUSTICE STANDARDS
FOR THE PROSECUTION FUNCTION STANDARD
3-6.8(C) (AM. BAR ASS’N 2015). As courts have of-ten
stated, “the trial counsel is at liberty to strike hard,
but not foul, blows.” Baer, 53 M.J. at 237. To that end,
the R.C.M. and our case law provide that it is error for
trial counsel to make arguments that “unduly . . .
inflame the passions or prejudices of the court
members.” United States v. Clifton, 15 M.J. 26, 30
(C.M.A. 1983); R.C.M. 919(b), discussion. An accused
is supposed to be tried and sentenced as an individual
based on the offense(s) charged and the legally and
logically relevant evidence presented. It is generally
impermissible to ask members to perform a role
beyond evaluating the evidence. See, e.g., Young, 470
U.S. at 18 (finding error in imploring the jury to “do
its job”); Brown v. State, 680 S.E.2d. 909, 912-15 (S.C.
2009) (finding error in asking the jury to “speak up”
for the child victim). Several of trial counsel’s remarks
run counter to these basic principles.

61a
Trial counsel are allowed to “forcefully assert
reasonable inferences from the evidence.” Cristini v.
McKee, 526 F.3d 888, 901 (6th Cir. 2008). One factor
to consider is whether the appellant was charged with
a corresponding offense that would justify the
negative
characterization
and
whether
the
characterization is an inference fairly drawn from the
evidence.
The assistant trial counsel, in closing argument
referred to the appellant as a child molester numerous
times. The appellant avers that the assistant trial
counsel was attempting to inflame the members to
convict the appellant based on the general nature of
the crime. We disagree. Here, the appellant was
charged with the sexual abuse of a minor. Referring
to the appellant as a child molester is a reasonable
inference based on the evidence supporting the
allegation that he sexually abused a minor.
However, during the rebuttal argument, the
assistant trial counsel argued:
[T]he defense is asking you to give child
molesters a license to commit these
crimes, because if you can’t find the
accused guilty in this case, the only
way—the only way a child molester
could ever be convicted [is] if he is
literally caught in the act.20
Of course, defense counsel did not make such a
direct request, and even if it could be implied, it bears
20

Id. at 553.

62a
no relevance on the appellant’s guilt and could only
have served to inflame the passions or prejudices of
the members. We find no legal basis that supports the
trial counsel’s invocation to the members to perform
an impermissible role and convict the appellant, not
on the evaluation of the evidence before them, but
based on the fear that not convicting would be
somehow encouraging other child molesters.
Finally, the appellant claims that during
sentencing argument, the trial counsel’s “justification
to a co-worker” argument was improper and
prejudiced the members against the appellant. We
disagree. The argument, while of questionable effect,
is an attempt to help the members give weight to the
government evidence by having them consider
justifying their adjudged sentence to their co-workers.
The members were properly instructed by the military
judge to determine an appropriate sentence based on
the evidence. Seeing no evidence to the contrary, we
presume that the members followed the instruction of
the military judge. Short, 77 M.J. at 151.
3. Objections raised
The assistant trial counsel argued that EN’s family
members refused to cooperate with the defense
because they believed EN. The military judge
overruled the defense counsel’s objection but still
issued a curative instruction to the members stating
that: “It is your exclusive province, the court
members, to determine the credibility of the witnesses
. . . .”21 While the argument was improper and the
21

Id. at 559

63a
objection was erroneously overruled, we find the
instruction was adequate to cure the error and we will
evaluate the prejudice incurred below.
4. Prejudice to the appellant
Finding error in some of the assistant trial
counsel’s arguments, we now turn to the third element
of our plain error analysis and examine the record for
prejudice. Pabelona, 76 M.J. at 12. In cases of
prosecutorial misconduct, we evaluate potential
prejudice by examining the severity of the misconduct,
the measures adopted to cure the misconduct, and the
weight of the evidence supporting the conviction.
Fletcher, 62 M.J. at 184. “[P]rosecutorial misconduct
by a trial counsel will require reversal when the trial
counsel’s comments, taken as a whole, were so
damaging that we cannot be confident that the
members convicted the appellant on the basis of the
evidence alone.” Id.
We first look at the severity of the misconduct. In
United States v. Pabelona, this court found that
despite prosecutorial misconduct, the severity of that
misconduct was low because it was limited to the
arguments of a “lengthy four day trial” and consisted
of “relatively isolated comments” and “cover[ed] a
small fraction of the trial.” No. 201400244, 2015 CCA
LEXIS 424, at *9 (N-M. Ct. Crim. App. 15 Oct. 2015),
aff’d, 76 M.J. 9 (C.A.A.F. 2017). The appellant’s trial
lasted for three days and the assistant trial counsel
used improper arguments and remarks just two times
during approximately an hour of combined closing,
rebuttal, and sentencing argument. Taken as a whole
and in the context of an emotionally charged trial, the

64a
assistant trial counsel’s improper arguments and
comments amounted to only a very small fraction of
the trial. Even though EN’s credibility was critical to
both sides, each comment was made only one time.
Although some of the assistant trial counsel’s remarks
were improper, we find that the misconduct taken in
proper context was not unduly severe.
Next, we look at whether there were any curative
measures taken. The military judge issued a curative
instruction only after overruling the defense counsel’s
objection to the argument that EN’s family believed
her. The military judge should have sustained the
objection and given the members a stronger
instruction to remind them that argument of counsel
is not evidence and to disregard the assistant trial
counsel’s statement that EN’s family believed her.
The military judge instructed the members that “[i]t
is [their] exclusive province, the court members, to
determine the credibility of the wit-nesses.”22 We find
that this instruction, given immediately after the
objection, was sufficient to cure the error of not
sustaining the objection. Seeing no evidence to the
contrary, we find that the members followed the
military judge’s instructions. United States v. Short,
77 M.J. 148, 151 (C.A.A.F. 2018).
Finally, we consider the strength of the evidence
against the accused. In United States v. Halpin, the
CAAF found that the weight of the evidence
supporting the appellant’s conviction alone was strong
enough to establish a lack of prejudice. 71 M.J. 477,
480 (C.A.A.F. 2013). Here, the government’s case,
22

Id.

65a
although primarily based on the testimony of EN, was
reasonably strong. Both the government’s and the
appellant’s cases hinged on the credibility of EN, who
appeared before the members, was extensively crossexamined, and was ultimately believed by the
members. Appellant exhibited consciousness of guilt
both when he apologized to EN the day after the abuse
for being an “asshole” and when he subsequently
called his brother and ex-pressed remorse and guilt
even though he never explained why.
Considering the isolated and brief nature of the
government’s improper arguments and the strength of
the government’s case compared to the appellant’s
case, we find that the appellant was not prejudiced. In
addition, as to the objections made by defense counsel
and the military judge’s curative instructions in
response, we are confident in the members’ ability to
adhere to the military judge’s instructions and put the
trial counsel’s comments in proper context. We have
no cause to question the fairness or integrity of the
trial and are convinced that the members convicted
the appellant on the evidence alone.
E. Ineffective Assistance of Counsel
Appellant claims the trial defense counsel was
ineffective for failing to move the court to depose
critical witnesses, produce certain evidence, and for
failing to object to trial counsel’s improper argument.
This court reviews claims of ineffective assistance of
counsel de novo. United States v. Mazza, 67 M.J. 470,
474 (C.A.A.F. 2009) (citations omitted). When
reviewing such claims, we follow the two-part test
outlined in Strickland v. Washington, 466 U.S. 668,

66a
687 (1984). “In order to prevail on a claim of ineffective
assistance of counsel, an appellant must demonstrate
both (1) that his counsel’s performance was deficient,
and (2) that this deficiency resulted in prejudice.”
United States v. Green, 68 M.J. 360, 361-62 (C.A.A.F.
2010) (citing Strickland, 466 U.S. at 687; Mazza, 67
M.J. at 474).
1. Failure to request depositions of witnesses
Appellant argues that his defense counsel was
ineffective because he failed to request that the
convening authority or the military judge order a
deposition of the victim’s mother and brother. EN’s
mother, GB, refused to speak with anyone on the
appellant’s defense team. EN’s brother, RJ, was 12
years old at the time of the Hawaii visit and was the
only other possible wit-ness to the abuse. RJ’s
stepmother had stated that RJ generally refuted EN’s
allegations. RJ was never interviewed by law
enforcement and his mother, GB, refused to allow RJ
to speak to defense counsel. The defense theory on this
issue was that EN’s family members refused to speak
with defense counsel because they were trying to
protect the victim’s stepfather, the current husband of
GB, because he and RJ had a physical altercation and
the police were involved.
We need not determine “whether counsel’s
performance was deficient . . . [i]f it is easier to dispose
of an ineffectiveness claim on the ground of lack of
sufficient prejudice.” Strickland, 466 U.S. at 697.
When a claim for ineffective assistance of counsel is
premised on trial defense counsel’s failure to move the
court to take some action, “an appellant must show

67a
that there is a reasonable probability that such a
motion would have been meritorious.” United States
v. McConnell, 55 M.J. 479, 481 (C.A.A.F. 2001). A
reasonable probability is a probability sufficient to
undermine confidence in the outcome. Strick-land,
466 U.S. at 694. “Failure to raise a meritless
argument does not constitute ineffective assistance.”
United States v. Napoleon, 46 M.J. 279, 284 (C.A.A.F.
1997).
After charges are preferred, a deposition may be
ordered whenever “due to exceptional circumstances
of the case it is in the interest of justice that the
testimony of a prospective witness be taken and
preserved for use at a . . . court-martial.” R.C.M.
702(a). Witnesses do not have an obligation to submit
to pretrial interviews. There was no need to preserve
the testimony of either GB or RJ for trial because they
were both present for and testified at trial. GB refused
to speak with defense counsel, but this does not rise to
the level of the “exceptional circumstances” required
by R.C.M. 702(a). See United States v. CabreraFrattini, 65 M.J. 950, 953 (N-M. Ct. Crim. App. 2008)
(the purpose of depositions is to “preserve testimony
for future use at trial” and not as a discovery vehicle).
RJ testified as a defense witness and the effective sum
of his testimony was that he did not see anything
unusual during the trip to Hawaii. Accordingly, the
appellant failed to establish that there was a
reasonable probability that his motion to depose GB
and RJ would have been meritorious. Moreover, the
appellant fails to persuade us that if his counsel had
been permitted to depose the witnesses, there would
have been a different result. The appellant merely
speculates that his counsel would have discovered

68a
additional
information
leading
to
further
investigation. The appellant failed to show that a
motion to depose RJ or GB would have been
meritorious or that the motion, if granted, would have
produced a different result. Therefore, the appellant
failed to show prejudice.
2. Failure to request the production of evidence
Appellant argues that his civilian defense counsel
was ineffective because he failed to move the court to
order production of EN’s disposable camera. EN’s
mother, GB, told investigators that EN had brought a
disposable cam-era home from Hawaii but that she
had not had the film developed. GB testified that she
did not know where the camera was or if anyone in
the family still possessed it.
We “must indulge a strong presumption that
counsel’s conduct falls within the wide range of
reasonable professional assistance.” Strickland, 466
U.S. at 689. The presumption of competence is
overcome when the appellant’s allegations are true
and there is no reasonable explanation for the
counsel’s actions, counsel’s level of advocacy falls
“measurably below the performance . . . [ordinarily
expected] of fallible lawyers,” and “there is a
reasonable probability that, absent the errors, there
would have been a different result.” United States v.
Gooch, 69 M.J. 353, 362 (C.A.A.F. 2011) (citing United
States v. Polk, 32 M.J. 150, 153 (C.M.A. 1991)
(internal quotation marks omitted). We will not
second-guess strategic or tactical decisions made by
the trial defense counsel unless the appellant can
show specific defects in counsel’s performance that

69a
were unreasonable under prevailing professional
norms. Mazza, 67 M.J. at 475.
Here, the defense did not know what pictures were
on the disposable camera. The pictures may have been
exculpatory or they may have further implicated the
appellant by supporting EN’s testimony that the trip
became awkward after the abuse. Neither party
suggested the camera contained photographs of the
appellant abusing EN. It was a reasonable tactical
decision to not request production of the camera, and
instead argue the absence of the camera casts doubt
on the witnesses’ testimony and showed bias. .
Moreover, the appellant is not entitled to the
production of unavailable evidence that is “destroyed,
lost, or otherwise not subject to compulsory process.”
R.C.M. 703(f)(2). A motion to compel discovery would
likely have failed first because the appellant could not
establish that the disposable camera even existed and
second because the camera was not in the possession
of the United States. United States v. Rodriguez, 60
M.J. 239, 246 (C.A.A.F. 2004). Accordingly, the
appellant cannot show that the motion would have
been meritorious and therefore cannot show
prejudice. McConnell, 55 M.J. at 481.
3. Failure to object to improper argument
Appellant argues that his trial defense counsel was
ineffective for not objecting to the trial counsel’s
improper argument referring to the appellant as a
child molester, vouching for the veracity of EN, and
imploring the members to convict the appellant in

70a
order to avoid giving all child molesters “a license to
commit these crimes.”23
“Failure to raise a meritless argument does not
constitute ineffective assistance.” Napoleon, 46 M.J.
at 284 (internal quotations omitted). We need not
determine “whether counsel’s performance was
deficient [i]f it is easier to dispose of an ineffectiveness
claim on the ground of lack of sufficient prejudice.”
Strickland, 466 U.S. at 697. Here, we have already
determined that the assistant trial counsel’s
arguments were either not improper, or if they were,
they were not prejudicial to the appellant.
Accordingly, trial defense counsel’s failure to object
was not prejudicial and therefore cannot constitute
ineffective assistance.
III.CONCLUSION
The supplemental Court-Martial Order shall
reflect an accurate summary of the Charge and
Specification including the language “groin” and
“inner,” the appellant’s plea of not guilty to the
specification, and the correct findings—of the
Specification, guilty, except the words “groin” and
“inner”; of the excepted words, not guilty; of the
Charge, guilty.
After careful consideration of the record and briefs
of appellate counsel, we have determined that the
approved findings, as modified by this court, and the
sentence, as reassessed, are correct in law and fact
and that no error materially prejudicial to Appellant’s
23

Appellant’s Brief at 39.

71a
substantial rights occurred. Articles 59and 66, UCMJ,
10 U.S.C. §§859, 866. Accordingly, the findings as
modified
and
sentence
as
reassessed
are
AFFIRMED.
Chief Judge CRISFIELD and Judge GASTON
concur.

